Audit of United States-Mexico
  Foundation for Science

     Mexico City, Mexico



   National Science Foundation
   Office of Inspector General


        December 8, 2004
         OIG 05-2-005
                              EXECUTIVE SUMMARY
This report provides the results of the Office of Inspector General’s (OIG) audit of United
States (U.S.) Government grants awarded to finance an endowment fund for the United
States-Mexico Foundation for Science (USMFS). The original purpose of the audit was
to evaluate (1) the adequacy of NSF policies and procedures for managing and
monitoring the USMFS award and (2) whether the USMFS was administering NSF grant
funds in accordance with award terms and conditions. However, because it was not
practical to limit our review only to NSF’s contribution for the USMFS endowment fund,
our audit also included the contributions provided by the Environmental Protection
Agency (EPA), the National Aeronautics and Space Administration (NASA), and the
Department of Agriculture (USDA).

The USMFS was established in 1992 as a non-profit organization to promote cooperation
in science and technology for the solution of problems of interest to both the United
States and Mexico. The USMFS is located in Mexico City and organizes workshops,
conferences, studies, and exchanges of scientists and engineers in order to define the
scope and content of science projects and activities to address problems shared by both
countries that are amenable to scientific and technological solutions. Since 1998, the
U.S. and the Mexican Governments have contributed $10.9 million and $5.9 million,
respectively, to the USMFS endowment fund. Total endowment investment earnings
totaled approximately $1.2 million during 2002, of which 54 percent was derived from
the U.S. contributions and the remaining 46 percent from the Mexican contributions. The
endowment investment earnings were to provide the USMFS with an established source
of annual funds for its scientific projects as well as to support part of its operational costs.

We found that NSF and the three other federal agencies did not establish adequate grant
agreements requiring the USMFS to comply with the three mandatory requirements
established by the U.S. Appropriations law for funding the USMFS endowment. Public
Law 106-74 appropriated monies for the USMFS endowment on the conditions that
Mexico matches the U.S. funding, the USMFS implements the U.S. federal grant
requirements, and the USMFS changes its name. Yet, each of the federal agencies failed
to include one or more of these statutory requirements in their grant agreements. As
such, the USMFS was not legally required and did not obtain $5 million, or 45 percent, of
matching endowment contributions from Mexico and did not implement the two
remaining legislative provisions.

Because the USMFS was not in full compliance with the Act’s requirements, NSF and
the other three Federal agencies expended $10.9 million in appropriated funds for the
USMFS endowment contrary to Congress’ express intent regarding how it wanted the
funds to be used. Furthermore, due to the shortfall in Mexican matching contributions,
the USMFS had limited funding for accomplishing its program goals. Specifically,
assuming the $5 million Mexican shortage would have earned the same interest rate as its
other endowment investments, we estimated that the USMFS would have earned an
additional $362,000, or 29 percent, of its total 2003 investment earnings to support other
endowment-sponsored projects.


                                               i
Also, because the USMFS did not implement the legislatively mandated U.S. grant
requirements, it lacked adequate internal controls to ensure that the U.S. share of the
endowment principal and investment earnings was properly accounted for and
administered. Specifically, the USMFS did not establish (1) a project cost-accounting
system to track the expenditure of endowment earnings by each contributing federal
agency and (2) basic internal controls for salary and travel expenditures. Moreover, since
the USMFS did not implement the U.S. grant requirements, NSF and the other federal
agencies received little value from the annual OMB Circular A-133 audit required by all
four federal agency grant agreements.1

Equally important, the USMFS did not establish adequate internal controls to ensure its
endowment fund was properly managed. In particular, a proposed reserve account,
set-aside to protect the value of the endowment fund from inflation, was under-funded by
$605,345, or 38 percent, between 1998 and 2003. Also, the USMFS inappropriately
invested $2.7 million, or 25 percent, of total U.S. endowment contributions in corporate
bonds and equities instead of U.S. government-backed securities as required. Further, the
USMFS did not establish dissolution procedures for the U.S. endowment principal of
$10.9 million and the U.S. share of reserve funds of almost $720,000 to ensure the funds
would be appropriately handled in accordance with U.S. grant provisions if the
organization were to cease operations.

The primary factor contributing to the lack of adequate and consistent U.S. federal grant
provisions implementing the three statutory requirements for funding the USMFS
endowment occurred because of miscommunication between various agency offices. In
NSF’s case, these legislative requirements were not communicated to the agency’s grants
and program officials when Public Law 106-74 was enacted to ensure that the NSF grant
agreement was appropriately amended. In addition, the four federal agencies did not
coordinate with each other to develop consistent terms and conditions for their
Congressionally-mandated funding of the USMFS endowment. Further, as a new and
foreign awardee, the USMFS was not familiar with and did not fully understand its
responsibilities for establishing a system of internal controls for managing its endowment
contributions in compliance with its U.S. grant provisions.

We recommended that as the largest U.S. contributor, the NSF bring the statutory
non-compliance issue to the attention of the President’s Office of Science and
Technology Policy (OSTP). NSF should formally propose that OSTP, in conjunction
with the Department of State, coordinate efforts between NSF, NASA, EPA, and USDA
regarding the corrective actions required to bring the Executive Branch in compliance
with the three mandatory requirements established by Public Law 106-74. Also, in
conjunction with these efforts, we recommended that NSF coordinate with the other
federal agencies to establish consistent and clear U.S. federal grant provisions to ensure
the USMFS institutes adequate internal controls for accounting and managing the
endowment principal and reserve funds.
1
              The USMFS has only performed the required annual OMB Circular A-133 grant audit in
1999, the first year after the endowment fund was established.


                                                 ii
A draft audit report, requesting comments, was issued to the cognizant NSF program and
grants offices and to the USMFS. In general, NSF finds the audit report to be useful, but
does not agree that the Foundation should take a leading role in coordinating corrective
actions for the entire U.S. Government. Furthermore, NSF notes that the audit report has
already been provided to OSTP, rendering formal notification by NSF as unnecessary.
Nevertheless, NSF does generally agree to implement the remaining audit
recommendations for its own contributions to the USMFS endowment fund.
Specifically, NSF will take prompt actions to negotiate necessary changes to its grant
agreement with the USMFS to comply with the mandatory legislative requirements of
P.L. 106-74 and to establish clear requirements for USMFS management of the
endowment principal and reserve funds.

The USMFS states that the facts presented in the audit report are generally accurate and
that management has an appreciation for the concerns and recommendations raised.
Accordingly, the USMFS agrees to work with the NSF and the other federal agencies to
develop and implement corrective actions resulting from the audit recommendations.
Additionally, it has begun the process of developing and implementing appropriate
internal controls and procedures over its endowment fund.

After our review of the NSF and USMFS comments, we re-affirm our audit
recommendations that NSF should coordinate its corrective actions with OSTP, the
Department of State, and the other three federal agencies. Essentially, we believe that
NSF has an inherent responsibility, on behalf of the Federal Government, to bring these
matters to the attention of the OSTP, who can coordinate corrective actions between the
federal agencies to ensure appropriated funds for the USMFS have been expended
consistent with Congressional requirements. Furthermore, since the USMFS’ accounting
system, along with its administrative policies and procedures, are used to track
expenditures and administer endowment funds for all contributing federal agencies, we
continue to believe that it is essential for NSF to coordinate its efforts with the other
agencies regarding needed accounting and internal control improvements.




                                           iii
                          TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                        i

INTRODUCTION                                                             1

    Background                                                           1

    Objectives, Scope, and Methodology                                   3

FINDINGS AND RECOMMENDATIONS

    1. NSF and Other Federal Agencies Need to Develop Grant Provisions   4
       To Ensure Compliance with U.S. Appropriations Statute

    2. USMFS Needs to Improve Financial Management Processes             12
       And Obtain A-133 Audits

    3. USMFS Needs To Establish Better Controls for Managing             19
       the Endowment Fund


APPENDICES

    Appendix A – USMFS Endowment Financial Report for 2002               28

    Appendix B – NSF Comments to Draft Report                            29

    Appendix C – USMFS Comments to Draft Report                          34




                                     iv
                                ACRONYMS

BOG       USMFS’ Board of Governors

CONACyT   Mexico’s National Council for Science and Technology

DIAS      NSF Division of Institution and Award Support

DGA       NSF Division of Grants and Agreement

EPA       U.S. Environmental Protection Agency

NASA      U.S. National Aeronautics and Space Administration

NSF       U.S. National Science Foundation

OISE      NSF’s Office on International Science and Engineering

OLPA      NSF Office of Legislative and Public Affairs

OMB       U.S. Office of Management and Budget

OSTP      President’s Office of Science and Technology Policy

USDA      U.S. Department of Agriculture

USMFS     United States-Mexico Foundation for Science




                                     -v-
                                 INTRODUCTION
BACKGROUND

The United States-Mexico Foundation for Science (USMFS), located in Mexico City,
was established in 1992 as a non-profit organization to promote cooperation in science
and technology for the solution of problems of interest to both the United States (U.S.)
and Mexico. The USMFS organizes workshops, conferences, studies, and exchanges of
scientists and engineers in order to define the scope and content of science projects and
activities to address problems shared by both countries that are amenable to scientific and
technological solutions. In 1998, the U.S. and Mexico agreed to establish an endowment
fund and use the interest earned to partially fund the USMFS operations, whereas,
previously the United States provided funding directly for the organization’s operations.

The late George E. Brown, a member of the U.S. House of Representatives, played a key
role in promoting science and technology collaboration between the U.S. and Mexico and
was instrumental in the establishment of the USMFS as a vehicle for promoting that
collaboration. Similarly, on the Mexican side, Carlos Bazdresch, the former General
Director of the National Council for Science and Technology (CONACyT), the Mexican
Government’s counterpart agency to NSF, played a key role in the orientation and
development of the USMFS.

A Board of Governors (BOG) consisting of sixteen members, eight from the U.S. and
eight from Mexico, govern the USMFS. The BOG members include representatives from
various Mexican government entities and private businesses and academic institutions in
both the U.S. and Mexico. The BOG meets twice a year and its various responsibilities
and authorities include: sanctioning and supervising the implementation of the USMFS
work program, approving the organization’s internal structure, approving systems of
control and audit, and sanctioning endowment investment decisions.

An Executive Committee (EC) assists the BOG in accomplishing its responsibilities. The
EC consists of four members of the BOG, two from each country, and also meets twice
per year. The day-to-day management of the USMFS is the responsibility of its
Executive Director, who is appointed by the BOG. The Executive Director proposes the
operational structure of the organization to the BOG and is responsible for the execution
of USMFS programs and projects. Among the Executive Director's many duties is
responsibility for the financial management of the organization’s resources. In 2003, a
staff of 33 employees supported the Executive Director.

The USMFS total income was approximately $2.9 million in 2002. This included
approximately $1.7 million in external funds from governments, private foundations, and
university organizations in the U.S. and Mexico and internal funds of approximately $1.2
million of interest earned on the endowment fund. The income derived from the
endowment was used to define and start the development of the USMFS’ science and
technology programmatic activities as well as to cover a portion of the organization’s
annual operating expenses. In other words, the income derived from the USMFS




                                           -1-
endowment fund serves as seed money and as a catalyst for the bi-national science and
technology programs that then seek funding from major public and private donors.

U.S. and Mexico Contributions to the USMFS Endowment Fund

Since 1998, the U.S. Government has contributed $10.9 million and the Mexican
Government $5.9 million to the USMFS endowment fund. Of the U.S. portion, NSF
contributed $4 million, or 37 percent, with the remaining funds provided by the
Environmental Protection Agency (EPA), the National Aeronautics and Space
Administration (NASA), and the U.S. Department of Agriculture (USDA). No further
U.S. or Mexican contributions to the USMFS endowment are planned. Endowment
investment earnings totaled approximately $1.2 million during 2002, of which the NSF
portion was about $245,000. A breakdown of endowment contributions and 2002 interest
earned by each agency contributing to the USMFS endowment fund follows:

    Agency              Total            Percentage of            FY 2002              Percentage of
                     Endowment               Total               Endowment                 Total
                    Contributions         Endowment            Interest Earned          Endowment
                                         Contributions                                Interest Earned

NSF                    $4,000,000                  23.7%               $244,912                  19.8%
EPA                    $2,000,000                  11.9%               $127,887                  10.3%
NASA                   $3,000,000                  17.8%              $178,734                   14.4%
USDA                   $1,900,000                  11.3%              $113,866                    9.2%
 U.S. Subtotal        $10,900,000                  64.7%              $665,399                   53.8%
CONACyT                $5,947,368                  35.3%               $571,644                  46.2%
 Total                $16,847,368                 100.0%             $1,237,043                 100.0%

Each of the four federal agencies issued separate grant agreements to provide their
contributions to the USMFS endowment fund. Currently, only the NSF award remains
active. Because of the unique nature of the funding for the USMFS endowment, NSF did
not use its typical grant or cooperative agreement to provide the Congressionally-
mandated $4 million contribution. Instead a special “Funding Arrangement” was
developed for providing NSF’s Congressionally-mandated contributions under NSF
award INT-9815601, effective August 1, 1998 and expiring on September 30, 2091.2
Under the terms of the “Funding Arrangement,” CONACyT, on behalf of Mexico, was
required to match the U.S. contributions. Additionally, the U.S. contributions were to be
invested in U.S. government-backed securities, guaranteeing the preservation of
principal, and a reserve amount was to be established to protect the endowment principal
from inflation.




2
         The period of performance for NSF award No. INT-9815602 was established based on the life of
the endowment, which is consistent with the 99-year life of the USMFS as stated in its founding document.



                                                  -2-
OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to evaluate (1) the adequacy of NSF policies and procedures
for managing and monitoring awards to the USMFS to ensure compliance with applicable
U.S. laws and federal regulations and (2) whether the USMFS was administering NSF
award funds in accordance with the grant terms and conditions. Because it was not
practical to limit our review to only NSF’s contribution for the endowment fund, this
report addresses the USMFS’ overall administration of the total $10.9 million of U.S.
government contributions from 1998 through December 15, 2003. However, our review
of the USMFS expenditure of endowment interest was limited to costs incurred in 2002.
Of these amounts, specific emphasis was given to the administration of NSF’s
contribution to the endowment fund awarded under NSF award no. INT-9815601.

During the audit, we reviewed U.S. government legislation applicable to the USMFS
endowment fund; federal and NSF grant policy and procedures; applicable NSF, NASA,
EPA, and USDA grant agreements; and the NSF award jacket. We interviewed
cognizant program and grants officials at NSF and the other three U.S. federal agencies to
gain an understanding of the steps taken to award and monitor the grants used to fund the
USMFS endowment fund.

In evaluating the adequacy of the USMFS’ administration of U.S. contributions to the
endowment fund and the interest earnings, we reviewed the organization’s internal
financial and management controls to safeguard U.S. government funds. We reviewed
the USMFS expenditures reflected in its financial reports and tested a limited sample of
expenditures incurred from January to December 2002. Although our onsite review at
the USMFS was performed in December 2003, the organization did not have complete
accounting records for 2003, due to a conversion to a new accounting system, which
required us to limit our primary testing to 2002 financial transactions. However, the
review of financial transactions was extended to other periods as deemed necessary. We
toured the USMFS offices and interviewed key personnel to gain an understanding of
management controls in place. Additionally, we interviewed the USMFS’ current
financial statement auditors, an official from the USMFS’ prior accounting services firm,
and the prior auditors, which conducted the 1999 audit under guidelines contained in
OMB Circular A-133, “Audits of Institutions of Higher Education and Other Nonprofit
Organizations.”

We conducted our audit in accordance with the U.S. Comptroller General’s Government
Audit Standards and included such test of accounting records and other auditing
procedures, as we considered necessary, to fully address the audit objectives.




                                          -3-
                     FINDINGS AND RECOMMENDATIONS
1. NSF and Other Federal Agencies Need to Develop Grant Provisions to Ensure
Compliance with U.S. Appropriations Statute

Public Law 106-74 (the Act) appropriated monies for the USMFS endowment fund on
the conditions that Mexico matches the U.S. funding, the USMFS implements the U.S.
federal grant requirements,3 and the USMFS changes its name to commemorate
Representative George E. Brown. However, NSF and the three other federal agencies,
that funded the USMFS endowment, did not include one or more of these three statutory
requirements in their grant agreements. In addition, the USMFS did not comply with the
mandatory provisions that were included in the federal grant agreements. Consequently,
the USMFS did not obtain $5 million, or 45 percent, of matching endowment funds from
Mexico, did not implement the federal grant requirements, and did not change its name.
Because the USMFS is not in full compliance with the Act’s requirements, NSF and the
other Federal agencies have expended their appropriated funds contrary to the intent of
Congress. Also, the shortfall in Mexican matching funds has limited the USMFS’ efforts
to accomplish its program goals. Furthermore, the USMFS lacks adequate internal
controls over the U.S. endowment funds because it has not implemented the U.S. grant
requirements. This occurred because of miscommunication between NSF offices in not
notifying the responsible grants and program staff of the three statutory conditions for
funding the USMFS endowment when P.L. 106-74 4 was enacted. Similarly, the other
federal agencies were also not aware of the mandatory conditions contained in the Act.

Mandatory Legislative Requirements Established For Funding of the USMFS
Endowment

On October 20, 1999, Congress enacted Public Law 106-74, The Departments of
Veterans Affairs and Housing and Urban Development, and Independent Agencies
Appropriations Act, 2000 to appropriate fiscal year 2000 monies to fund the USMFS
endowment. While Section 423 of the Act established clear legislative authority for
federal agencies to fund the USMFS endowment, it also established three mandatory
conditions for the funding. The three conditions constituted a constraint on the use of the
appropriated funds and reflected Congress’ express intent regarding how it wanted the
funds to be used. Section 423 of the Act states:




3
         Federal grant requirements include the U.S. grant administrative requirements as prescribed by
OMB Circular A-110, “Uniform Administrative Requirements for Grants and Agreements With Institutions
of Higher Education, Hospitals, and Non-Profit Organizations,” the federal cost principles as prescribed by
OMB Circular A-122, “Cost Principles for Non-Profit Organizations,” and the grant audit requirement as
prescribed by OMB Circular A-133, “Audits of Institutions of Higher Education and Other Non-Profit
Organizations.”
4
        The prior year, PL 105-276, appropriated U.S. monies for the USMFS endowment fund for fiscal
year 1999, but did not require that USMFS meet these same conditions.



                                                   -4-
       SEC. 423. Notwithstanding any other law, funds made available by this or
       another Act or previous Acts for the United States/Mexico Foundation for Science
       may be used for the endowment of such Foundation: Provided, That funds from
       the United States Government shall be matched in equal amounts with funds from
       Mexico: Provided further, That the accounts of such Foundation shall be subject
       to United States Government administrative and audit requirements concerning
       grants and requirements concerning cost principles for nonprofit organizations:
       Provided further, That the United States/Mexico Foundation for Science is
       renamed the ‘George E. Brown United States/Mexico Foundation for Science.’

By its own terms, Section 423 applies to any endowment “funds made available by this or
any other Act or previous Acts for the United States/Mexico Foundation for Science,”
thus these three mandatory conditions are applicable to all U.S. funds appropriated for the
USMFS endowment. This includes any prior funding and those provided by any other
federal agency; therefore, the provisions were applicable to all endowment contributions
made by NSF, NASA, EPA, and USDA.

U.S. Grant Agreements Lacked Provisions to Implement Legislative Requirements

Yet, NSF and the other three federal agencies did not incorporate the three Section 423
statutory requirements into their grant agreements for funding the USMFS endowment.
Three of the four agency agreements required the USMFS to obtain matching funds from
Mexico, two required the USMFS to comply with the U.S. grant requirements, but none
of the agreements required the USMFS to change its name.

Specifically, the NSF grant agreement required the USMFS to obtain matching funds, but
did not require it to fully comply with the U.S. grant requirements or to change its name.
Because of the unique nature of USMFS endowment funding, NSF developed a special
“Funding Arrangement” to provide NSF’s Congressionally-mandated contributions.
Accordingly, on August 1, 1998, NSF issued award INT-9815601, effective through
September 2091. Provision VII of the “Funding Arrangement” required CONACyT, the
Mexican counterpart agency to NSF, to “match on a one for one basis any contributions
made by NSF or other U. S. government agencies.” The provision also specified that
NSF or the other federal agencies could reclaim their contributions if Mexico did not
match the U.S. funding within 180 days. NSF officials stated that the NSF grant
provisions included the endowment contributions made by the other Federal agencies
because at the time the award was made, only the NSF had clear legislative authority,
pursuant to its organic act, to fund an endowment. Thus, these NSF grant provisions
provided the option for other agencies to fund the endowment through NSF if necessary.

Further, the NSF agreement required the USMFS to arrange for annual audits pursuant to
OMB Circular A-133, “Audits of Institutions of Higher Education and Other Nonprofit
Organizations.” However, it did not require the USMFS to comply with the U.S. grant
administrative requirements and cost principles for non-profit organizations, or to change
its name. Without requiring the USMFS to adhere to these U.S. grant requirements, the
usefulness of the annual A-133 audit required would be of limited value to NSF.




                                           -5-
Similarly, the NASA, EPA, and USDA grant agreements were also lacking in
implementing all of the Act’s requirements. While the EPA and USDA grant agreements
required Mexico to match the U.S. funding, NASA’s grant agreement did not include
such a provision. Additionally, like the NSF agreement, only the EPA grant agreement
allowed the agency to reclaim its contribution if Mexico did not pay its matching share.
But both the NASA and EPA grant agreements did require the USMFS to comply with
the U.S. grant administrative requirements, cost principles, and audit requirements as
mandated by the Act. But none of the grant agreements required the USMFS to change
its name. Details of our analysis follow:

            Federal Agency Grant Provisions for USMFS Endowment Fund

Agency    Matching     Reclaim     U.S. Grant     Federal   A-133 Audit    Name
         Requirement     U.S.     Administrative   Grant    Requirement   Change
           In Grant  Contribution Requirements      Cost                Requirement
          Agreement   If Lack of                 Principles
                       Mexico
                        Match

NSF          Yes           Yes           No            No          Yes            No
NASA         No            No            Yes           Yes         Yes            No
EPA          Yes           Yes           Yes           Yes         Yes            No
USDA         Yes           No            No            No          Yes            No


The NSF and the other three federal agencies did not include all of the Act’s statutory
requirements in its grant agreements because of miscommunication between agency
officials. Although NSF’s Office of Legislative and Public Affairs (OLPA) was
responsible for assuring that NSF’s grants and program staff were aware of the statutory
requirements for funding the USMFS endowment, OLPA could not find any
documentation that it had notified cognizant officials of the Section 423 requirements.
Therefore, NSF grants officials did not appropriately amend the grant agreement to
include the new statutory provisions of P.L. 106-74 that were enacted more than one
year after the initial award to the USMFS. Similarly, discussions with NASA, EPA, and
USDA grants and program officials disclosed that the other agencies were also not aware
of the Section 423 legislative requirements.

USMFS Did Not Comply With Provisions of U.S. Grant Agreements

Equally important, the USMFS did not comply with all of the provisions that were
included in the four federal agency grant agreements. Specifically, it did not obtain
matching funds from Mexico for $4,952,632, or 45 percent, of the total U.S. endowment
contributions. Of the total U.S. contributions of $10.9 million, CONACyT, on behalf of
the Mexican Government, has essentially matched NSF’s contribution of $4 million and
$2 million of NASA’s contribution. However, it has not matched the remaining $1
million of NASA funding, $2 million of EPA funding, and $1.9 million of USDA



                                          -6-
funding. In general, CONACyT matched the U.S. contributions in chronological order of
each federal agency’s payment, thus it was the later U.S. contributions that were not
matched. A detailed analysis of the U.S. and Mexican contributions to the USMSF
endowment follow:

 U. S.     Matching          U. S.        Contribution     Contribution     Total U.S. and
Agency    Requirement     Contribution    Matched by       Not Matched         Mexico
            In Grant         Paid           Mexico          By Mexico       Contributions
           Agreement                                        (Shortage)

NSF            Yes         $4,000,000      $3,947,368       $ 52,632         $7,947,368
NASA           No          $3,000,000      $2,000,000       $1,000,000       $5,000,000
EPA            Yes         $2,000,000           0           $2,000,000       $2,000,000
USDA           Yes         $1,900,000          0            $1,900,000       $1,900,000

Total                     $10,900,000      $5,947,368       $4,952,632       $16,847,368

The U.S. federal agencies did not pursue the Mexico matching funds for several reasons.
In NSF’s case, it was satisfied that CONACyT had matched NSF’s endowment
contributions and did not believe that it was responsible for seeking Mexico’s matching
share for the other federal agencies. Officials from the other federal agencies stated that
they did not take actions to ensure that the USMFS obtained the matching Mexican funds
because they were uncertain how and/whether they were required to enforce such a
requirement given that Congress had mandated their agencies to contribute the specific
amounts to the endowment fund. Discussions with the USMFS Executive Director
disclosed that efforts to obtain the required matching share from CONACyT, on behalf of
the Mexican Government, had not been successful because of the poor economic
conditions in Mexico over recent years.

Additionally, our onsite review disclosed that the USMFS had not implemented the U.S.
grant administrative requirements or cost principles as required by the NASA and EPA
grant agreements. As a foreign awardee, the USMFS officials were totally unaware of
the U.S. administrative requirements and cost principles and the existence of the
applicable OMB Circulars, which detail these grant requirements. However, as required
by all the agencies’ grant agreements, the USMFS did have an OMB Circular A-133
audit completed in 1999, but has not had the audit performed since that time. According
to the USMFS Executive Director, the A-133 audits were not performed because of the
additional costs required to perform such reviews in addition to their annual financial
statement audits.

Appropriation of USMFS Endowment Funds Do Not Meet Statutory Requirements

As a result of the USMFS’ lack of full compliance with the Act’s legislative
requirements, the four federal agencies have expended their appropriated funds contrary
to the intent of Congress. Additionally, the USMFS has been limited in accomplishing its
program goals due to the shortfall in matching Mexican funds and lacked adequate



                                           -7-
internal controls over the expenditure of U.S. endowment interest earnings. Specifically,
the three conditions required by Section 423 of P.L. 106-74 constituted a clear constraint
by Congress on how it wanted the appropriated funds for the USMFS endowment to be
provided and administered. By awarding the funds without grant provisions requiring the
USMFS to satisfy the three statutory requirements, the four federal agencies have not
properly administered the appropriated funds provided by Congress

Furthermore, the Act required Mexico to match the U.S. contributions to provide the
USMFS with an established source of funding for its operations and scientific programs.
As such, the $4,952,632 shortage of Mexican matching contributions has reduced the
USMFS’ total annual financial resources. Assuming the $4,952,632 would have earned
the same interest rate as Mexico’s other endowment contributions, it is estimated that the
USMSF would have earned an additional $361,542, or 29 percent, of total interest earned
in 2003 to support its operations and scientific programs. The lack of such additional
funds limited the USMFS’ accomplishment of its program goals.

Further, we believe the language in the Act imposing U.S. grant requirements on the
accounts of USMFS was intended to ensure accountability over the U.S. endowment
contributions. However, because the USMFS did not implement these requirements, we
found that it did not establish adequate internal controls to ensure that the U.S. share of
the endowment principal and earned interest was properly accounted for and
administered. Specifically, contrary to federal grant requirements, the USMFS lacked a
project cost-accounting system to track the expenditure of endowment interest earnings
by each contributing federal agency and the USMFS claimed some grant costs that were
unsupported or unallowable pursuant to the federal cost principles. Also, it was not
administering the endowment fund in compliance with all provisions of its NSF and other
federal agency grant agreements. Further details of these issues are discussed in Finding
2 and 3 of the audit report.

Lastly, Congress intended to commemorate Representative George Brown by requiring
the USMFS to change its name. Representative Brown was instrumental in helping both
to establish the USMFS in 1992 and its endowment fund in 1998. Yet, because NSF and
the other federal agencies did not inform the USMFS of this statutory requirement, this
name change was not made.

Conclusion

Because Section 423 of the Act affects all four of the U.S. contributing agencies, NSF
cannot unilaterally take corrective action that will remedy the statutory non-compliance
with the three mandatory conditions established for funding the USMSF endowment.
Nevertheless, as the largest U.S. contributor, NSF needs to take the lead to bring this
matter to the attention of the President’s Office of Science and Technology Policy
(OSTP) and propose that it coordinate efforts between NSF, NASA, EPA, and USDA to
develop a strategy to bring the four agencies in compliance with the Act.




                                           -8-
Such a U.S. government strategy can include directing the USMFS to issue a formal
written request to CONACyT asking for payment of the $5 million Mexican government
shortage, clearly specifying that U.S. law requires the matching funds. Further, it could
be suggested that an installment repayment plan be established to recover the Mexican
shortage. Alternatively, the U.S. Government could seek the return of its endowment
contributions or OSTP and the agencies could propose that Congress change the law.
Because this matter involves the relationship between the governments of the U.S. and
Mexico, we also believe that the U.S. State Department should also be consulted on the
appropriate corrective course of action needed.

Recommendations

We recommend that the Director, Office of International Science and Engineering
(OISE), in consultation with the General Counsel and the Director, Office of Legislative
and Public Affairs (OLPA):

1.1    Formally notify OSTP of the NSF and the Executive Branch’s statutory
       non-compliance with the three mandatory requirements established in Section 423
       of P. L. 106-74 for funding the USMSF endowment and propose that OSTP, in
       conjunction with the Department of State, coordinate efforts between NSF,
       NASA, EPA, and USDA on the corrective actions required to bring the Executive
       Branch in compliance with the intent of Congress as expressed in Section 423.

We recommend that the Director, Division of Grants and Agreements (DGA) and the
Director, Division of Institution and Award Support (DIAS), in consultation with the
Director, OISE:

1.2    Amend the NSF “Funding Arrangement” with the USMFS to ensure that
       endowment contributions are managed in full compliance with Section 423 of
       P. L. 106-74 requirements based on the required corrective actions identified from
       recommendation 1.1 above.

NSF Comments

NSF states that the audit report is useful, but does not agree that it should take a leading
role to coordinate efforts with the other three federal agencies to enforce the provisions of
Section 423 of P.L. 106-74. Specifically, NSF states that it lacks the authority to take
such a leading role because there is no legal relationship between NSF and the three other
federal agencies with regard to the USMFS. Therefore, NSF rejects recommendation 1.1
to bring the statutory non-compliance issue to OSTP’s attention and propose that it
coordinate corrective actions needed between the four agencies. Additionally, NSF states
that a formal notification is not necessary because the OIG has already provided OSTP a
copy of the audit report.

However, NSF partially agrees with recommendation 1.2 and will negotiate with the
USMFS to amend its award agreement to implement the Section 423 statutory




                                            -9-
requirements with respect to NSF’s funding of the USMFS endowment fund.
Specifically, NSF will include “the administrative and audit requirements specified in
P.L. 106-74” and provide for renaming of the organization. NSF notes, however, that the
renaming of the USMFS may require negotiation with the Mexican Government and
exceeds NSF’s authority. Furthermore, NSF plans to delete all current grant provisions
referencing endowment contributions made by the other federal agencies.

USMFS Comments

While the USMFS states that the facts presented in the audit report are accurate, it does
not state its position on the preceding audit conclusions and recommendations.
Nevertheless, the USMFS agrees to work with NSF and the other federal agencies to
develop and implement corrective actions resulting from the audit recommendations.

OIG Response

While there is merit with NSF’s position that it does not have the authority to require the
other federal agencies to comply with the three mandatory Section 423 requirements of
P.L. 106-74, we believe that NSF has the responsibility to bring this matter to the
attention of the OSTP, who does have such authority. OSTP can coordinate efforts
between the four federal agencies to remedy the fact that U.S. appropriated funds have
been expended contrary to the expressed intent of how Congress wanted the funds for the
USMFS to be used. Additionally, because NSF’s grant agreement specifically requires
Mexico to match endowment contributions made by the other federal agencies, NSF
should not delete this grant provision without coordinating its efforts with OSTP and the
other agencies. This NSF grant provision could be essential in the Executive Branch’s
efforts to initiate appropriate corrective actions to achieve compliance with the matching
requirement mandated by Section 423; therefore, we reaffirm audit recommendation 1.1.

With regard to Recommendation 1.2, NSF’s proposed corrective actions to amend its
grant agreement with the USMFS to include the Section 423 statutory requirements are
appropriate. However, to fully implement the legislative requirements, NSF must also
include the “cost principles for nonprofit organizations” as prescribed by Section 423. In
this regard, we believe that NSF should specifically require USMFS compliance with the
applicable OMB Circulars, which establish U.S. grant administrative requirements, cost
principles, and audit requirements.5 These OMB standards will establish clear
requirements for sound financial management systems to account for grant funds and
ensure the federal funds are spent on reasonable and allowable grant activities.

Additionally, it is unclear whether NSF’s proposed action to amend the grant provisions
to require the USMFS to change its name will bring NSF in full compliance with the
Section 423 requirement. As NSF notes, if negotiations with the Mexican Government
are required to achieve the name change, then NSF would not have the authority to

5
         OMB Circular A-110 establishes administrative requirements for grants, OMB Circular A-122
establishes cost principles for non-profit organizations, and OMB Circular A-133 establishes audit
requirements for grants.



                                               - 10 -
engage in such negotiations with a foreign government. Therefore, supporting our
position, as reflected in recommendation 1.1, that the Department of State be consulted
and involved in the corrective actions required to bring NSF and the other federal
agencies in compliance with the Section 423 legislative requirements. We once again,
reaffirm that NSF work together with OSTP, the Department of State, and the other
federal agencies to maximize the success of its proposed corrective actions.




                                          - 11 -
2. USMFS Needs To Improve Financial Management Processes and Obtain
   A-133 Audits

NSF and the other federal agency grant agreements were not adequate to implement all
legislative requirements for funding the USMFS endowment. While two of the four grant
agreements required the USMFS to comply with the U.S. grant administrative
requirements and cost principles, the NSF grant agreement did not include these
requirements. Additionally, although all the grant agreements included the legislatively
required OMB Circular A-133 audit, such an audit is not meaningful without mandatory
USMFS compliance with the U.S. grant administrative and cost principles, which
establish the standards for such a review. As a result, because the U.S. grant
administrative and cost principles were not implemented, we found that the USMFS
lacked (i) a cost-accounting system to record and track project costs funded by each
individual federal agency, (ii) basic internal controls over salary and travel expenditures,
and (iii) useful OMB Circular A-133 audits. This occurred because as a new as well as a
foreign awardee, the USMFS lacked a clear understanding of its federal grant
responsibilities to establish adequate internal controls for managing and administering the
expenditure of its endowment investment earnings.

USMFS Lacks Written Internal Control Policies and Procedures for its Cost-Accounting
System

U.S. award recipients are responsible for establishing written policies and procedures that
describe an effective system of internal controls6 to ensure that the U.S. grant funds are
properly accounted for, administered, and monitored in a cost-accounting system by each
federal award. Pursuant to the federal grant administrative requirements, prescribed by
OMB Circular A-110,7 this type of accounting system should provide for:

    •    Accurate and complete disclosure of the financial results of each federal award
         and project;

    •    Identification through accounting records of the source and application of funds
         for each federal award and project;

    •    Effective control over and accountability for all funds, property, and other assets;

    •    Written procedures for determining the reasonableness, allocability and
         allowability of incurred costs; and,



6
         Internal controls are policies and procedures to provide reasonable assurance that an organization
is achieving its objectives for effective and efficient operations, reliable financial data, and compliance with
applicable laws and regulations.
7
       OMB Circular A-110 is entitled, “Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Non-Profit Organizations.”



                                                    - 12 -
   •   Accounting records that are supported by source documentation for each federal
       award and project.

Further, the NSF, EPA, and USDA grant agreements required the USMFS to provide an
annual report to “include a fiscal report of contributions to the Endowment, interest
earned on the Endowment and the expenditure of the interest earned . . .”

However, our review of this required USMFS’ annual financial endowment report,
entitled Format A-133 FY 2002 (see copy at Appendix A on page 28), disclosed that the
project expenses and/or operational costs reported for each federal agency were not
supported by the accounting records. The USMFS was not able to provide
documentation supporting the individual agency costs or any written policies or
procedures specifying the methodology used to allocate the total endowment
expenditures to each agency. The USMFS’ accounting system did not have the capability
to segregate the expenditure of endowment interest earnings by each supporting agency
as is required by OMB Circular A-110; and therefore, commingled all endowment
expenditures. Accordingly, the reported expenditures for each federal agency were based
on a subjective allocation of the total endowment expenditures rather than an accounting
of the actual expenditures incurred for the projects. As a result, NSF and each of the
three federal agencies were unable to determine how their endowment earnings were
spent to verify that the disbursements were for authorized grant purposes.

Nevertheless, given the unusual nature of funding the USMFS endowment, the federal
agencies need to determine the level of cost segregation required to provide for adequate
accountability over the expenditure of their endowment interest earnings. A possible
alternative could be only to require the USMFS to segregate costs by each project funded
by the endowment interest, regardless of the source of the funds. Such total cost
segregation by each endowment-sponsored project would be appropriate under special
grant conditions clearly identified in the award agreements. These conditions could
clearly delineate that unallowable federal grant costs be tracked in separate accounts to
clearly show that U.S. funds were not used for such expenditures. Thus, precluding the
requirement that actual project costs incurred for each project by funding source be
separately tracked in the accounting records.

Better Internal Controls Needed for USMFS Salary and Travel Costs

Additionally, the USMFS lacked written policies and procedures governing expenditures
for salaries and travel as would be required by federal grant requirements. The USMFS
did not have an employee timekeeping system supporting its annual payroll costs. The
USMFS employees were basically on an honor system and were not required to maintain
time and attendance records. Additionally, the USMFS allocated staff costs to specific
projects funded by the endowment interest earnings based on budgeted costs rather than
employee time and effort records, as is typically required by the federal cost principles
under OMB Circular A-122. The lack of supporting accounting documentation for
payroll costs is a significant internal control deficiency given that the USMFS had 33
employees and total annual salary costs of approximately $700,000. Without such labor




                                          - 13 -
effort records, the USMFS cannot ensure that the salary costs claimed represented actual
labor hours worked.

Additionally, USMFS did not have an established system for approving and reimbursing
travel expenditures. There was no standard travel authorization form or travel voucher
reimbursement form clearly specifying the name of the traveler, the purpose of the travel,
and the authorized amount to be paid to the traveler. The lack of written travel
procedures resulted in NSF and the other federal agencies having less assurance that the
USMFS travel costs were properly authorized and actually benefited their endowment-
sponsored projects. Also, the travel expenses paid were not always allowable if federal
cost principles had been applied. For example, our review of supporting travel
documentation commonly disclosed reimbursement for alcoholic beverages.
Specifically, we noted that charges for BOG alcoholic beverages in fiscal year 2002
totaled over $500. Additionally, first and business class airfares and upgrades of
approximately $3,000 in fiscal year 2002 were paid for BOG members and their
spouses.8 While these unallowable costs were not a significant portion of the USMFS’
travel expenditures, the USMFS accountant stated that travel claims were always paid as
long as receipts were provided because the organization did not have established travel
guidelines to question the reasonableness or allowability of any claimed travel costs.

Required OMB Circular A-133 and Other USMFS Audits Have Limited Usefulness

Although all four U.S. grant agreements required an OMB Circular A-133 audit, the
usefulness of such an audit to the federal agencies for evaluating accountability over
endowment funds was limited because two of the agreements, including NSF’s, did not
require compliance with the U.S. grant administrative requirements and federal cost
principles that establish the basis or standards for the audit. One of the major objectives
of an A-133 audit is to test grantee compliance with the specific U.S. grant administrative
requirements and cost principles prescribed by federal regulations. These requirements
hold awardees responsible for having sound financial management systems to account for
federal grant funds and to ensure that they are spent on reasonable and allowable grant
activities. But since the NSF grant agreement did not require the USMFS to comply with
these regulations, the audit would not be able to accomplish its primary objective of
evaluating USMFS compliance with these standards.

Furthermore, the A-133 audit was only performed for one year and was of questionable
quality. While the OMB Circular required annual audits, the USMFS had only obtained
the audit for 1999, the first year following the endowment’s establishment. Also, while
the 1999 audit concluded that the Schedule of Expenditures of Federal Awards (similar to
Appendix A on page 28) was fairly presented and the USMFS had established and
maintained effective internal controls over compliance with requirements of laws,
regulations, contracts, and grants applicable to federal programs; the validity of the
auditor’s conclusion is questionable. Specifically, the expenditure of endowment interest
was not segregated in the accounting system to permit verification of the Schedule of
Expenditures of Federal Awards by each contributing federal agency. Also, it is evident
8
       Furthermore, the NSF and USDA grant agreements specifically limited airfares to economy class.



                                               - 14 -
that since the USMFS staff were not aware of or familiar with the U.S. grant
administrative requirements and cost principles as specified in applicable OMB Circulars,
the organization could not have been in compliance with these federal regulations as
concluded in the A-133 audit report. Discussions with the cognizant international
accounting firm officials confirmed that there was a lack of experience in performing
OMB Circular A-133 audits.

Finally, the USMFS did have financial statement audits performed annually that included
a review of the endowment interest receipts and expenditures. The auditors issued
unqualified opinions and concluded that the financial statements reasonably presented the
financial position of the USMFS in accordance with generally accepted auditing
principles in Mexico. Yet, based on U.S. audit standards, the lack of written procedures
and adequate supporting documentation for basic USMFS expenditures such as salary
costs would have at a minimum required disclosure as an internal control weakness.

USMFS Staff Lacked Understanding of Financial Management Controls

The USMFS did not establish effective internal controls for managing and accounting for
its endowment expenditures to ensure compliance with its federal grant agreements
because as a new as well as a foreign organization, it lacked a clear understanding of the
need to establish written policies and procedures for its basic operational processes. The
USMFS did not have staff with adequate financial management expertise that recognized
the importance of establishing a system of internal controls for managing the
organization’s financial and grant administration operations. Specifically, the USMFS
contracted out for basic accounting services and did not hire an in-house accountant until
2002. Discussions with the USMFS former accounting services firm disclosed that they
were tasked to provide bookkeeping services only and not to provide advice on internal
control procedures. As a result, internal accounting and administrative controls were not
designed and established to provide reasonable assurance that the USMFS had effective
operations to accomplish its mission and to safeguard assets and provide for reliable
financial data.

Concomitantly, as a foreign organization, the USMFS did not understand NSF and
federal grant requirements or its responsibilities to ensure full adherence with all award
conditions and prudent management of all activities affecting its endowment fund.
USMFS officials were not aware of the U.S. grant administrative requirements or the cost
principles, thus they were not aware that a project cost-accounting system was required to
properly account for, administer and monitor costs by individual federal grants or
projects. Furthermore, while NSF’s “Funding Arrangement” required an OMB Circular
A-133 audit, the USMFS Director stated that they have not performed the annual audits
since 1999 because of the required additional costs and because neither NSF or the other
federal agencies had ever requested the A-133 audit reports over the years.

Contributing to the problem, we believe that the audit firms engaged by the USMFS to
perform its annual financial statement audits and its OMB Circular A-133 audit in 1999
were both remiss in their responsibilities not to advise the USMFS of the need to improve




                                          - 15 -
its system of internal control when there were clearly no written operating policies and
procedures for its basic operations. As a result, the USMFS was never informed of any
needed improvements in its operations or changes required in the presentation of its
financial data. In addition, the current USMFS financial statement auditors do not
possess the expertise or experience to perform the required annual A-133 audits.

It is imperative that NSF and the other federal agencies coordinate efforts to establish
consistent federal grant provisions for financial accountability over USMFS expenditure
of U.S. endowment earnings. The four agencies must ensure that the USMFS is clearly
required by their grant agreements to comply with the U.S. federal administrative
requirements, cost principles, and audit requirements as specified by P.L. 106-74 and
previously discussed in Finding 1. If the agencies agree that modification of such
requirements are justified because of the atypical nature of funding the endowment,
special grant conditions must clearly delineate such changes. Also, technical assistance
should be provided to the USMFS to ensure a clear understanding of such decisions that
will directly impact the requirements of its project cost-accounting system and annual
A-133 audit.

Recommendations

We recommend that the Director, OISE in consultation with the Director, DGA and
Director, DIAS:

2.1 Coordinate with NASA, EPA, and USDA officials to clarify the U.S. government
    requirements for the USMFS’ project cost-accounting system for endowment
    expenditures.

We recommend that the Director, DGA and Director, DIAS in consultation with the
Director, OISE:

2.2 Require the USMFS to improve its internal controls over the expenditure of
    endowment interest by establishing written policies and procedures for salary and
    travel expenditures. Specifically, airfares should be limited to economy class as
    required by the NSF grant agreement.

2.3 Based on consultation with other agencies as specified in Recommendation 2.1
    above, provide clarification to the USMFS on how the required annual fiscal report
    of endowment expenditures (shown in Appendix) should be presented and require
    that such financial data be supported by its accounting records.

2.4 Direct the USMFS to arrange for OMB Circular A-133 audits annually in the future
    as required by the NSF grant agreement.




                                          - 16 -
2.5 Provide technical assistance to the USMFS to ensure that:

    •   Cognizant staff clearly understands federal grant requirements, as prescribed by
        the applicable OMB Circulars, through appropriate training classes.

    •   Auditors with adequate expertise and experience are engaged to perform the
        required OMB Circular A-133 audits.

NSF Comments

NSF rejects recommendation 2.1, but accepts recommendations 2.2 through 2.5. Once
again, NSF states that it does not have the authority to take the lead in coordinating
efforts with the other three federal agencies to improve USMFS financial management
procedures and OMB Circular A-133 audit processes. However, it agrees to implement
the remaining audit recommendations as they pertain to NSF funding of the USMFS
endowment. Specifically, NSF plans to negotiate changes to its grant agreement with the
USMFS to introduce the administrative and audit requirements as specified in Section
423 of P.L. 106-74.

Specifically, with regard to recommendation 2.3, NSF states that the USMFS annual
fiscal endowment report (see Appendix A on page 28) appears to include the required
information on endowment contributions and interest earned and expended, as required
by Section V of its grant agreement. Also, for recommendation 2.4, NSF specifies that
Section C (5) of its grant “agreement did not require annual audits or that USMFS
comply with OMB Circular A-133.”

USMFS Comments

While the USMFS states that the facts presented in the audit report are accurate, it does
not state its position on the audit conclusions and recommendations. However, the
USMFS states it has began the process of developing and implementing appropriate
internal controls and procedures based on the observations and comments of the draft
report. Also, the USMFS agrees to work with NSF and the other federal agencies to
improve its relevant internal procedures and controls resulting from the audit
recommendations. As such, the USMFS has retained an accounting firm in Mexico,
which is being advised by an international accounting company on the requirements of
relevant U.S. regulations including OMB Circulars A-110, A-122, and A-133.

OIG Response

With regard to audit recommendation 2.1, since the USMFS project cost-accounting
system is used to track endowment expenditures for all contributing agencies, we
continue to believe that it is essential for NSF to coordinate its efforts with the other
federal agencies regarding requirements for the USMFS to separately record and track
project costs funded by each individual federal agency. Furthermore, at a minimum,
NSF needs to clarify its own requirement regarding such accounting system requirements




                                           - 17 -
for the NSF portion of endowment expenditures. Specifically, NSF’s comment that the
USMFS annual financial endowment report (Appendix A on page 28) appear to include
the required information on expenditures of the interest, indicates that NSF does not
understand that much of the financial data reflected in this annual report is not supported
by the USMFS accounting records. In particular, the financial records document none of
the project costs reported for NSF or the other contributing agencies because the USMFS
accounting system commingles all expenditures of the interest. Pursuant to U.S.
accounting standards, such a deficiency in an organization’s financial reports would be
considered a material internal control weakness. Thus, we reaffirm audit
recommendation 2.1.

With regard to recommendations 2.2 through 2.5, NSF’s proposed corrective actions to
amend its grant agreement with the USMFS to include the administrative and audit
requirements for grants are appropriate. However, to fully implement these
recommendations, as previously noted in Finding A, NSF must also include the “cost
principles for nonprofit organizations.” Similarly, we reaffirm our position that the
applicable OMB Circulars, which establish U.S. grant administrative requirements, cost
principles, and audit requirements, should be used to institute such new NSF grant
standards.

In addition, with regard to recommendation 2.4, NSF should carefully consider the
language to be used in amending its grant agreement with the USMFS with regard to the
audit requirements mandated by Section 423 of P.L. 106-74. While we believe that
NSF’s current grant provision that “The USMFS shall arrange for the conduct of an audit
as required by OMB Circular A-133 …” is clear in requiring an annual A-133 audit, NSF
does not agree. Specifically, NSF’s position is that this grant provision does not “require
annual audits or that the USMFS comply with the OMB Circular A-133.” We are
concerned with NSF’s comment and note that Subpart B, Section 220, Frequency of
audits, of OMB Circular A-133, requires that audits be performed annually. In addition,
we believe that the words, as stated, clearly specify that the OMB A-133 procedures are
to be used for such audits. Therefore, in amending its grant provision, NSF must use
precise language that it believes will clearly require annual audits and the use of OMB
Circular A-133 standards.

USMFS actions are appropriate to begin developing internal control procedures and to
obtain advice from an international accounting firm on the requirements of OMB
Circulars A-110, A-122, and A-133. While the NSF grant agreement does not require
compliance with all three of these OMB Circulars, which establish federal grant
administrative and audit requirements and cost principles; two of the USMFS grant
agreements with the other federal agencies do include these OMB requirements. Thus,
initial USMFS steps taken to obtain an understanding of these OMB regulations are
responsive to the audit recommendations and highly commendable.




                                           - 18 -
3. USMFS Needs To Establish Better Controls for Managing the Endowment Fund

The NSF and other federal agency grant agreements did not include consistent provisions
for the USMFS endowment management. Specifically, one of the four grant agreements
did not require a reserve account to protect the USMFS endowment value against
inflation, did not limit endowment investments in U.S. government-backed securities, and
did not include endowment dissolutions terms. As such, we found that the USMSF
under-funded the endowment reserve account by $605,345, or 38 percent, of the required
balance since 1998 and did not set-aside $70,000, or one-third, of the annual reserve
amounts approved by its Board of Governors (BOG) in 2002. Furthermore, $2.7 million,
or 25 percent, of total U.S. endowment principal and $560,000, or 78 percent, of the U.S.
share of the endowment reserve account were inappropriately invested in corporate bonds
and equities instead of U.S. government-backed securities. Additionally, the USMFS had
not established dissolution procedures to ensure the U.S. share of the endowment funds
would be appropriately handled in accordance with its federal grant agreements.

Consequently, NSF and the other federal agencies had less assurance that the endowment
funds were adequately safeguarded from losses due to inflation and risky investments and
would be distributed in accordance with federal guidelines if the USMFS were to cease
operations. Once again, this occurred because as a new, as well as a foreign organization,
the USMFS lacked a clear understanding of its responsibilities to establish a system of
internal controls for managing its endowment fund to ensure compliance with its federal
agency grant terms and conditions. Thus, it did not develop timely and comprehensive
written policies and procedures for managing the endowment fund.

NSF Develops Special Award Terms and Conditions for USMFS Endowment Fund

Due to the unique nature of funding the Congressionally-mandated USMFS endowment
fund, NSF developed special terms and conditions for handling the U.S. contributions.
The “Funding Arrangement” established the following significant provisions for
endowment management:

   1. “The USMFS proposes to reinvest a portion of the interest earned from the
      Endowment in order to protect the value of the Endowment over time.”

   2. “The USMFS will invest funds made available to the Endowment by the NSF, or
      by other U. S. government agencies, in U.S. government backed securities.”
      (emphasis added)

   3. “If and when the USMFS dissolves, the U.S. contributions to the Endowment
      shall be returned to NSF for return to the U.S. Treasury, or distributed in
      accordance with the by-laws of the USMFS to support activities approved by NSF
      in consultation with the other contributing U.S. government agencies.”




                                          - 19 -
However, because each of the other federal agencies independently developed their own
grant provisions addressing these endowment management issues, the provisions varied
between NSF, NASA, EPA, and USDA as follows:

      Federal Agency Grant Provisions For USMFS Endowment Fund Management


Agency               Endowment Reserve             Investment in U.S.          Dissolution Terms
                         Required                 Government Backed
                                                  Securities Required

NSF                           Yes                          Yes                          Yes
NASA                          No                           No                           No
EPA                           Yes                          Yes                          Yes
USDA                          Yes                          Yes                          Yes

Clearly, the EPA and the USDA had grant provisions consistent with NSF provisions
requiring a reserve account to protect the value of the endowment, investment in U.S.
government-backed securities, and endowment dissolution terms. However, the NASA
grant agreement did not include such provisions.

USMFS Did Not Fully Comply With U.S. Grant Provisions

Yet, the USMFS did not comply with three of the four federal grant agreements
prescribing certain requirements for managing and administrating U.S. endowment
contributions. Specifically, the USMFS did not correctly compute a reserve amount to
protect the endowment’s principal against inflation, fund the approved reserve amount in
a timely manner, allocate the annual reserve amounts to each contributing agency
equitably, limit the investment of all endowment funds to U.S. government-backed
securities, and establish dissolution terms for the endowment principal and/or reserve.9

a. Endowment Reserve Account

Pursuant to the current USMFS endowment policies, a reserve account balance
“equivalent to the U. S. inflation rate applied to the totality of endowment funds” should
be maintained to protect the value of the principal from inflation. USMFS officials stated
that they have always used this methodology, but were unable to provide any
documentation supporting the annual computation of the reserve amount since the
endowment’s establishment in 1998. Notwithstanding the lack of supporting
documentation, the BOG approved a total reserve amount through 2003 of $982,450.
However, applying the U.S. consumer price index10 against the annual endowment

9
         The USMFS had six separate endowment investment accounts: one for each of the five
contributing agencies and one for the reserve funds.
10
         We used the annual Consumer Price Index published by the U.S. Department of Labor multiplied
by the total endowment principal to calculate the required reserve amount.



                                                - 20 -
balance for 1998 to 2003, we estimated that the total reserve amount should have been
$1,587,795. Thus, we estimated that the reserve balance was $605,345, or 38 percent
short, of the required balance based on the USMFS’ current written endowment policies.

Additionally, although the BOG approved the annual reserve amounts, the USMFS did
not always set-aside the full amounts in the reserve account each year. The endowment
reserve was not fully funded during 2002 at the BOG approved levels by $70,000. Of the
$200,000 reserve approved for 2002, $60,000 was not deposited into the reserve account
until January 2003 and the remaining $10,000 in March 2003. For 2003, the BOG
originally approved $150,000 for the total reserve account, but reduced the amount by
$50,000 in October 2003, three months before year-end, because the USMFS total
expenditures were greater than budgeted.

Additionally, the USMFS endowment policies did not specify how the reserve amount
would be allocated to each contributing agency. Therefore, the amounts were arbitrarily
allocated to each contributing agency and resulted in a significant variance in each
agency’s contribution to the reserve account in comparison to their proportional share of
the endowment principal. For example, NSF contributed 24 percent of total endowment
funds, but USMFS records showed that NSF contributed only 12 percent of the reserve
amount during the period from 1998 to 2002. Comparisons of each agency’s allocated
reserve contributions to their total endowment contributions follow:


     Agency     USMFS Allocation of         Percentage             Agency              Percentage
                  Contributions by         Contribution to      Contributions to      Contribution to
                 Agency to Reserve            Reserve            Endowment             Endowment
                 Account for 1998 to         Account               Principal            Principal
                       2002

NSF                   $105,300                 11.9 %             $4,000,000              23.7 %
NASA                  $ 84,000                  9.5 %             $3,000,000              17.8 %
USDA                  $ 87,000                  9.9 %             $1,900,000              11.3 %
EPA                   $109,450                 12.4 %             $2,000,000              11.9 %
 Total US             $385,750                 43.7 %             $10,900,000             64.7 %

CONACyT               $496,700                 56.3 %             $5,947,368              35.3%

     TOTAL           $882,45011                 100%             $16,847,368              100%

The USMFS allocation shows that the U.S. contributors have under-funded the reserve
account while CONACyT, in behalf of Mexico, has over-funded the reserve.
Specifically, the U.S. agencies have funded 43.7 percent of the reserve, but provided 64.7
percent of the total endowment contributions; while CONACyT has funded 56.3 percent

11
         Total reserve funding reported only through 2002 because the USMFS had not prepared allocation
of reserve funding by contributing agency for 2003 at the time of our onsite review in December 2003.




                                                - 21 -
of the reserve while its endowment contributions were only 35.3 percent. According to
USMFS officials, the allocations were based on cash flow derived from when endowment
investments paid their interest earnings during the year. We believe that such an arbitrary
allocation methodology was not equitable because the use of a contributor’s earnings for
the reserve account reduced the amount of funds used for supporting that agency’s
sponsored projects.

b. Required Endowment Investment in U.S. Government-Backed Securities

Contrary to the NSF “Funding Arrangement” specifically limiting the investment of U.S.
contributions from all federal agencies to U.S. government-backed securities, the
USMFS endowment policies inappropriately allowed for the investment of NASA’s
contributions in prime investment-grade securities. As such, the USMFS has improperly
invested 91 percent of NASA’s contribution of $3 million in “prime investment grade
securities” instead of less risky U.S. government-backed securities. As of November
2003, 73 percent of NASA’s funds were invested in corporate bonds12 and 18 percent in
equities. According to the USMFS, it did not limit the investment of NASA
contributions to only U.S. government-backed securities because the NASA grant
agreement did not include the same investment restriction that was required by the three
other federal agencies.

Furthermore, we found that the USMFS endowment policies also allowed the investment
of endowment reserve funds in a “higher risk portfolio.” As such, as of November 2003,
the reserve account was invested 36 percent in other fixed income instruments, 43 percent
in equities, 8 percent in mutual funds, and only 13 percent in U.S. government-backed
securities. Since 64.7 percent of the endowment funds were financed with U.S.
contributions, we estimate that the U.S. share of the reserve account was $719,097. Of
this amount, $157,875 was invested in U.S. government backed securities, with the
remaining $561,222 inappropriately invested in higher risk investments. The USMFS
Executive Director stated that the endowment reserve funds were considered USMFS
assets and not restricted U.S. endowment funds, thus not subject to the U.S. required
investment restrictions.

c. Endowment Dissolution Procedures

The USMFS endowment policies did not include any dissolution terms for the
endowment fund. As a result, our analysis of applicable dissolution provisions in various
USMFS legal documents revealed inconsistent and potentially conflicting treatment of
the U.S. endowment contributions. Three of the four federal grant provisions stated that
in the event of USMFS termination, the U.S. share of endowment contributions would
either be returned to the U. S. Treasury or distributed in accordance with the by-laws of

12
        Additionally, contrary to USMFS investment guidelines with their brokerage firm, we found that
$444,961 or 17 percent of the NASA purchased bonds were invested in instruments rated below grade A.
The investment guidelines state that “The bonds must be investment grade and preferably rated A or better
by both Moody’s and Standards and Poors.” Yet, 17 percent of the value of the bonds was invested in
BAA bonds (medium grade) and 7 percent were not rated.



                                                 - 22 -
the USMFS to support activities approved by the contributing federal agency. However,
the USMFS by-laws state that “In case of dissolution, the property of the Foundation
shall be transmitted free of charge to the institution and nonprofit institutions that the
Board of Governors determines.” We believe that these two provisions create confusion
as to whether the federal agencies or the BOG would have the final decision over
disposition and usage of the U.S. share of endowment funds. Alternatively, although not
a legal document, the Notes to the USMFS Audited Financial Statements state that upon
dissolution, the endowment contributions would be refunded to the different contributing
institutions. Further, quite different than the U.S. grant provisions, the CONACyT grant
agreement for the USMFS endowment stated that its funds were to be returned to
CONACyT.

Also, the BOG Treasurer stated that distribution of the endowment funds to other
organizations, as specified in the USMFS bylaws, would not be well advised because
under Mexican tax laws, a substantial portion of such distributions would be lost in taxes.
Thus, he believed that the best course of action would be to return the endowment funds
to the contributing agencies.

Furthermore, neither the U.S. federal agencies or the USMFS had any written policies nor
procedures specifying how the more than $1 million of endowment reserve funds would
be handled upon USMFS dissolution. None of the U.S. grant agreements addressed this
issue and the USMFS endowment policies also did not deal with this subject. However,
the USMFS Executive Director stated that none of the endowment reserve funds would
be returned to any of the endowment contributors because, as previously stated, his
position is that the reserve funds are USMFS assets and not restricted endowment assets.
However, the BOG Treasurer stated that he believed that the reserve amount should be
returned to the contributors in proportion to their funding of the endowment principal.

USMFS Endowment Fund Inadequately Protected Against Inflation and Potential Market
Losses

Because the USMFS is not fully complying with all federal grant conditions, NSF and the
other federal agencies had less assurance that the endowment funds were adequately
safeguarded against inflation and potential losses due to market conditions and would be
appropriately handled in accordance with federal guidelines if the USMFS were to cease
operations. The USMFS’ failure to adequately fund the reserve account compromises the
financial capability of the endowment fund to support USMFS activities in the future. If
the endowment principal is not adequately protected against inflation by setting aside a
sufficient reserve amount annually, future endowment earnings will be diminished and
inadequate to support USMFS operations and activities, as originally envisioned. To
illustrate, we estimated that annual interest earned on the reserve shortage of $605,345
would be $38,742.13 As such, the USMFS does not have this amount available annually
to fund its current activities because of the shortage in its reserve account. This shortage

13
         We calculated this amount using 6.4, the overall interest rate earned on the endowment reserve
account in 2003.




                                                  - 23 -
will continue to increase if the USMFS continues not to adequately fund the reserve
amount annually.

Furthermore, the inappropriate investment of 91 percent of NASA contributions and 87
percent of the U.S. portion of the reserve account in corporate bonds and equities, instead
of U.S. government-backed securities, exposes U.S. appropriated funds and earned
interest to the increased financial risk of the stock market, where profit and most
importantly, the principal itself is not guaranteed. Perhaps investment in high-grade
corporate bonds and preferred stock are considered a conservative investment portfolio
by the USMFS and other non-government organizations, but such investments are not
appropriate for U.S. government funds. In the absence of clear express authority by the
NASA grant provisions to invest in more speculative financial instruments, normal
fiduciary guidance articulated by the other U.S. agencies would dictate investment in
U.S. government-backed securities, where the U.S. contributions would always be
protected against market losses.

Additionally, without established USMFS dissolution terms for the endowment funds,
there is increased risk that the $10.9 million in U.S. endowment contributions will not be
returned or used by the USMFS for activities or purposes acceptable to the contributing
federal agency. Equally important, it is unclear whether NSF or the other federal
agencies would receive return of a proportionate share of the endowment reserve account
or have any management oversight over its disposition if the USMFS were to cease
operations. As of November 2003, the reserve account had a value of $1,111,434, of
which the NSF share was $263,410 and the total U.S. share was $719,097.

USMFS Lacks Adequate Written Endowment Management Policies and Procedures

As previously stated, as a new and foreign awardee, the USMFS lacked a clear
understanding of the need to establish written policies and procedures for managing its
endowment fund to ensure full compliance with its federal grant terms and conditions.
As such, although the endowment fund had been established for over five years, the
USMFS had only recently established any written management guidance. Specifically,
the new policies and procedures were drafted in November 2003, immediately prior to
our onsite review, and approved by its Board of Governors in April 2004. While the
written procedures are a positive step, our review of the new endowment policies
disclosed that there are several significant issues that were not properly or adequately
addressed.

First, with respect to the endowment reserve, the USMFS needed to comply with its
policy to set-aside an annual amount “equivalent to the U. S. inflation rate applied to the
totality of endowment funds.” Prudent business management practices would also dictate
that the procedures should further (i) require the calculation of the annual reserve amount
be documented, (ii) specify how and why the BOG approved annual reserve amounts
could be deferred and/or adjusted, (iii) provide an equitable allocation methodology for
the annual reserve amounts to each endowment contributor, and (iv) specify how the
endowment reserve funds would be treated upon USMFS dissolution. Similarly, the




                                           - 24 -
procedures also needed to establish clear dissolution terms for the endowment principal
itself as well.

Furthermore, we believe that USMFS endowment policies need to be revised to limit the
investment of all U.S. endowment contributions, including NASA’s contributions, in U.S.
government-backed securities as required by the NSF grant provision. We do not believe
that the absence of a specific NASA grant restriction necessarily authorized the USMFS
to invest these U.S. appropriated funds in non-U.S. government-backed securities.
Likewise, the absence of specific federal grant provisions also did not authorize the
investment of the U.S. share of the endowment reserve amounts in higher risk financial
instruments.

NSF needs to take this opportunity to coordinate with the NASA, EPA, and USDA to
identify and discuss each agency’s views on the appropriate requirements for USMFS
management of the endowment fund. Such efforts will result in consistent U.S. federal
government requirements for endowment management and provide additional
clarification to the USMFS on how those requirements need to be met. Most importantly,
this will provide NSF with both the opportunity and the required information, based on a
thorough evaluation of all relevant information, to evaluate any changes in its own award
terms and conditions for the USMFS endowment.

Of particular importance, the agencies need to establish requirements for the endowment
reserve funds. The USMFS Executive Director clearly takes the position that these funds
are USMFS assets and not endowment assets. Thus, the funds are not subject to any of
the U.S. endowment grant requirements and will not be returned to the U.S. Government
if the USMFS were to cease operations. However, NSF grants and program officials do
not agree with the USMFS position that these are not endowment assets. The reserve
funds are derived from endowment earnings and set-aside from monies that the
contributing federal agencies directed to be used for sponsored projects and/or USMFS
operational costs. The reserve funds are not intended to establish a separate private
endowment fund for the USMFS.

Recommendations

We recommend that the Director, OISE in consultation with the Director, DGA and
Director, DIAS:

3.1 Coordinate with NASA, EPA, and USDA officials to develop consistent U.S. federal
    government requirements for the USMFS endowment with regard to the reserve
    funds, specific investment requirements, and dissolution terms for the endowment
    principal and reserve funds.

3.2 Evaluate the need for changes in the NSF grant terms and conditions for the USMFS
    endowment fund based on the results of recommendation 3.1 above.




                                          - 25 -
We recommend that the Director, DGA, in consultation with the Director, OISE,
require the USMFS to improve its internal controls over endowment management to
ensure compliance with its NSF grant agreement as follows:

3.3 Comply with its current procedures to compute the annual endowment reserve
    amount using the U.S. inflation rate. Develop additional written policies and
    procedures to ensure that the approved reserve amount is fully funded annually and
    the annual reserve contributions are equitably allocated to each contributing agency.

3.4 Revise its endowment procedures to limit the investment of all U.S. endowment
    contributions, including the NASA funds and the U.S. portion of the reserve account,
    to U.S. government-backed securities.

3.5 Establish clear disposition terms for the endowment principal and the reserve funds in
    the event of USMFS dissolution. Such procedures should clearly specify that the
    reserve funds are restricted endowment assets and not USMFS assets.

NSF Comments

NSF rejects audit recommendations 3.1 and 3.4, but generally accepts recommendations
3.2, 3.3, and 3.5. Specifically, NSF rejects recommendation 3.1 and 3.4 because it states
that the Foundation does not have the authority over funds provided to the USMFS by
other Federal agencies and it is not appropriate for NSF to dictate to other agencies how
their award agreements should be structured. Furthermore, NSF plans to delete all
current grant provisions referencing endowment contributions made by the other federal
agencies.

With regard to recommendations 3.2, 3.3, and 3.5, NSF states it will seek to obtain
appropriate amendments of its grant agreement to clarify directions on the disposition of
NSF-provided funds, with respect to the endowment, the reserve, and interest earnings,
upon dissolution of the USMFS. In particular, for recommendation 3.3, NSF will
attempt to amend the grant agreement to require the USMFS to use the U.S. inflation rate
in calculating reserves for interest earnings, but only for NSF-provided funds.

USMFS Comments

The USMFS states that the facts presented in the audit report are accurate, but does not
state its position on the audit conclusions and recommendations. Nevertheless, it agrees
to work with NSF and the other federal agencies to develop and implement corrective
actions resulting from the audit recommendations.

OIG Response

Although NSF cannot dictate to the other federal agencies how their award agreements
should be structured, we continue to believe that coordinated efforts are essential in
developing consistent U.S. requirements for endowment management to protect not only




                                          - 26 -
NSF’s $4 million contribution, but also the remaining U.S. contributions of $6.9 million.
Since the USMFS endowment management policies and procedures will be based on
such federal requirements and will affect all U.S. federal agency contributions, we
reaffirm recommendation 3.1.

In addition, with regard to recommendation 3.4, NSF should not delete the current NSF
grant provision requiring the investment of all federal agency endowment contributions
in U.S. government-backed securities, without first discussing the potential effect of such
a proposed change with the other federal agencies. This NSF grant provision could be
instrumental in requiring the USMFS to invest all federal agency endowment
contributions in more conservative U.S. government-backed securities rather than more
speculative financial instruments such as corporate bonds and stocks. Typically, normal
fiduciary guidance articulated by the Federal Government stipulates that U.S.
appropriated funds should only be invested in these more speculative financial
instruments when there is clear express authority to do so. However, there was no such
provision in any of the four federal agency grant agreements for funding the USMFS
endowment.

Furthermore, to fully implement recommendation 3.4, NSF also needs to establish
investment requirements for the reserve funds. Specifically, as of November 2003, over
78 percent, or almost $206,000, of NSF’s portion of the reserve funds was
inappropriately invested in non-U.S. government-backed securities, where profit and
most importantly, the principal is not guaranteed. Of this amount, over 50 percent was
invested in corporate stocks or mutual funds.

With regard to recommendations 3.2, 3.3, and 3.5, NSF proposed actions to negotiate
amendments to its award agreement to require the USMFS to use the U.S. inflation rate
in calculating the endowment reserve amount annually and to clarify requirements on the
disposition of NSF-provided funds are appropriate. However, to fully implement audit
recommendation 3.3, NSF must also require the USMFS to establish procedures for
equitably allocating the reserve to each contributing agency. Although the current
USMFS process has favored NSF to date, by allocating only 12 percent of reserve
requirements to NSF versus its 24 percent share of total endowment contributions, the
USMFS could change such a process at any time. Without established written
procedures, it is possible that in the future, NSF and/or other U.S. federal agency
endowment interest could be disproportionately allocated to funding the reserve account
rather than to bi-national science and technology related project activities, which are the
major purpose of the U.S. endowment funding.




                                           - 27 -
                                                                            The United States Mexico Foundation for Science
                                                                                        Format A-133 FY 2002

                                                                                               Total Funds Applied to Projects

                                                                                                                                                  Endowment      Endowment interests    Endowment
                                                                           Total        Amount
                                                          Balance                                     Total                       Assigned to   interests used         used for        interests used      Total       Balance to
                                                                         Interest     Invested in                 Percentage
                                                          Starting                                   Available                     Projects      for Programs       Administrative      for Board of     Asssigned      31/12/02
                                                                           2002         Reserve
Source Funds                                                                                                                                     Development          Expenses           Governors

N.S.F.                                                         29,044      244,912          45,300      228,656       19.90%           94,081          102,913                 5,543             3,344      205,881           22,776
N.A.S.A.                                                       26,627      178,734          14,000      191,361       16.66%           77,930           86,128                 4,639             2,799      171,495           19,866
U.S.D.A.                                                        8,722      113,866          12,000      110,588        9.63%           41,633           49,771                 2,680             1,617       95,701           14,887
E.P.A.                                                          1,353      127,887          24,000      105,240        9.16%           57,631           47,366                 2,551             1,539      109,087           -3,847
Total Estados Unidos                                           65,746      665,399          95,300      635,845       55.34%          271,274          286,177                15,414             9,299      582,164           53,681
CONACYT                                                        46,088      571,644         104,700      513,032       44.66%          214,887          230,910                12,504             7,571      465,872           47,160
Total Funds                                                   111,834    1,237,043         200,000    1,148,877         100%          486,161          517,087                27,918            16,870    1,048,037          100,840


                                                                                                     Total Project Expenses

                                                                                                                                                                                       Total from U.S.
                                                                           Amount             NSF        NASA            USDA            EPA                                                             CONACYT      Verification *
Projects                                                                                                                                                                                  Sources

Summer Fellowships                                                          37,744          11,145        9,744               0             0                                                   20,889       16,855           37,743
Megacities pollution                                                        55,171          10,980        9,189               0        10,364                                                   30,533       24,637           55,170
Water and Health                                                            42,683               0            0           4,108        19,514                                                   23,622       19,060           42,682
Industry University Coop. For Clean Production                              25,812           5,137        4,299           2,484         2,364                                                   14,285       11,526           25,811
Food Safety                                                                 23,329               0            0          12,911             0                                                   12,911       10,418           23,329
Migrant Health                                                              25,700           5,115                        2,474         6,635                                                   14,223       11,476           25,699
Enviromental Health Network                                                 43,813           8,720        7,297           4,217         4,013                                                   24,247       19,565           43,812
Science.Tech. And Border                                                    15,367           4,466        2,560           1,479                                                                  8,505        6,862           15,367
Specialist Training in Enviromental Health                                   7,161           1,425        1,193             689           656                                                    3,963        3,198            7,161
Crossborder                                                                 58,871          11,717        9,806           5,666         5,393                                                   32,581       26,289           58,870
Binational Science Education                                                56,707          16,744       14,639               0             0                                                   31,383       25,323           56,706
Visiting Scientists                                                          9,852           2,909        2,543               0             0                                                    5,452        4,399            9,852
Strategic Planning                                                          18,742           3,730        3,122           1,804         1,717                                                   10,372        8,369           18,742
Nasa                                                                        27,055           5,384        4,506           2,604         2,478                                                   14,973       12,081           27,054
New Border Water Project                                                     4,955               0        3,500               0         1,455                                                    4,955            0            4,955
Outreach                                                                    33,209           6,609        5,531           3,196         3,042                                                   18,379       14,829           33,208
Total Projects                                                             486,171          94,081       77,930          41,633        57,631                                                  271,274      214,887          486,161




1.- Program Development Expenses                                           517,098
2.- Adminstrative Expenses                                                   75,108
3.- Board of Governors Expenses                                              64,060
4.- Total Expenses (Sum 1+2+3)                                             656,266
5.- Overhead charged to third party projects                                 94,212
6.- Total Expenses covered by the Endowment                             562,053.70
7.- Percentage of Interest generated by Endowment from U.S.                 55.34%
8.- Portion of Expenses covered by Endowment from U.S.                  311,057.38




                                                                                                                    28
                                                                                              Appendix B



                                             NATIONAL SCIENCE FOUNDATION
                                               4201 Wilson Boulevard, Arlington, Virginia 22230




        Office of International Science and Engineering

        MEMORANOUM TO                  SENIOR AUDIT MANAGER,
        OFFICE OF INSPECTOR GENERAL (OIG)

        From:


        Subject:          Response to Draft Report on Audit of the United State-Mexico Foundation for
                          Science (USMFS)

        Enclosed you will find the coordinated agency response to the Draft Report on Audit of the
        United States-Mexico Foundation for Science.

        I want to thank you for granting the time extension to the USMFS and us to be able to better
        coordinate our &nsec      should you have any additional concerns please let me know.


    '   Attachment

L       -ec: 1
                 Directorate for Social, Behavioral and Economic Sciences (AWSBE)


                 Division of Grants and Agreements (BFAIDGA)

             m   Division of Institutional and Award Support (BFAIDIAS)

             -9

                 Office of Legislative and Public Affairs (ODIOLPA)


                 Office of the General Counsel (OD/OGC)
                                                                             Appendix B


                                      DRAFT

Response to the Draft Report on Audit of the United States-Mexico Foundation for
                               Science (USMFS)

NSF management finds this Draft Audit Report very useful, but does not agree with its
conclusion that NSF, as the major contributor to the Endowment, should take the lead to
get the other three federal agencies to enforce the provisions of Public Law 106-74 for
the entire U.S. Government. NSF lacks the authority to do so, since there is no agreed
legal relationship between the NSF and the other three agencies vis-à-vis the USMFS.
Each agency has an independent relationship with the USMFS.

Since NSF can only accept responsibility for its own actions in relation to the USMFS as
specified in its “Funding Arrangement”, we must reject the recommendations (1.1, 2.1,
3.1, and 3.2) that NSF work with other interested Federal agencies (specifically the
Office of Science and Technology Policy, Departments of Agriculture and State,
Environmental Protection Agency, and National Aeronautics and Space Administration)
to determine what actions are necessary regarding the endowment of the George E.
Brown United States/Mexico Foundation for Science or take actions to affect funds
provided by other agencies (3.4) . If OSTP or DOS address this matter on a government-
wide basis or one of the three other funding agencies asks us for help, naturally we will
assist them.

Instead, NSF will negotiate an amendment of its “Funding Arrangement” with the
USMFS, to comply with the requirements of Section 423 of Public Law 106-74, as
quoted in the Draft Audit Report, as it pertains to the NSF vis-à-vis the USMFS
exclusively. This will involve deleting reference to the other agencies from the financial
arrangements (that is, contributions to the Endowment); introducing the administrative
and audit requirements specified in P.L. 106-74; and (if possible) providing for the
renaming of the USMFS. The issue of matching funds is already integral to the “Funding
Arrangement” and thus is not an issue for NSF. The issue of renaming the USMFS as the
George Brown Memorial Foundation may require negotiation with Mexican authorities
and thus exceed the authority of the NSF. Consequently, we accept the remaining
recommendations (1.2, 2.2 through 2.5, 3.3, and 3.5) except those suggesting that NSF
coordinate its actions with other agencies or enforce their participation. The Division of
Institution and Award Support will take prompt action to negotiate necessary changes to
the “Funding Arrangement”.

The above statements clearly summarize the NSF response, however, as requested by the
Office of the Inspector General a point-by-point reply on each of the recommendations, is
presented below.




                                           30
                                                                                Appendix B


OIG Recommendation 1.1 –That OISE in consultation with OGC and OLPA formally
notify OSTP of the non-compliance with the three mandatory requirements established in
Section 423 of P. L. 106-74 and propose that OSTP coordinate corrective efforts.

Agency Response – NSF rejects this recommendation both because it would
inappropriately have us take the lead in this matter and because the Office of Inspector
General has already provided OSTP a copy of this draft audit report, making a formal
notification unnecessary.


OIG Recommendation 1.2 -- That DGA amend the NSF “Funding Arrangement” to
ensure that endowment contributions are managed in full compliance with Section 423 of
P. L. 106-74,

Agency Response – DGA will engage in negotiations with USMFS to amend the award
to implement the statutory requirements in respect to NSF funding. To the extent that
this recommendation would have NSF seek to assure compliance for all United States
Government-provided endowment funds, we reject it as exceeding our authority.


OIG Recommendation 2.1 – That OISE coordinate with NASA, EPA, and USDA to
clarify US Government requirements for project cost accounting systems for endowment
earnings expenditures.

Agency Response - NSF rejects this recommendation because it would inappropriately
have us take the lead in this matter.


OIG Recommendation 2.2 – That DGA & DIAS require USMFS to improve internal
controls and establish written policies and procedures for salary and travel expenses
(Specifically airfare should be limited to economy class).

Agency Response - DGA will engage in negotiations with USMFS to amend the award
to implement the statutory requirements in respect to NSF funding. The NSF Funding
Arrangement, Section VII (B) travel costs, already requires that airfare not exceed
economy travel.


OIG Recommendation 2.3 – DGA & DIAS provide clarification on required reporting
of annual fiscal report of endowment interest expenditures.

Agency Response - The NSF Arrangement (Section V – Reporting requirements)
requires a fiscal report of contributions, interest earned, and a program activity report.
These fields appear to be included in the Exhibit one. In addition, USMFS provides
annual reports to NSF outlining program activities and posts annual reports to the
USMFS website. If the NSF program officer requires additional reports or details from



                                             31
                                                                            Appendix B


USMFS he/she can contact USMFS directly or utilize section C – audits and records - of
the funding agreement to obtain more detailed financial information.


OIG Recommendation 2.4 – DGA & DIAS direct USMFS to arrange for A-133 audits
annually.

Agency Response - The Funding Arrangement Section C (5) states “The USMFS shall
arrange for the conduct of an audit as required by OMB Circular A-133, ‘Audits of
Higher Education and Other Non-Profit Organizations.’” The USMFS shall provide a
copy of the report of this audit to NSF.” The agreement did not require annual audits or
that USMFS comply with OMB Circular A-133. USMFS did have an A-133 audit report
conducted and did provide a copy of this report to NSF. As the auditors state on page 3
of the audit report, “Without requiring USMFS to adhere to US grant requirements (A-
122 and A-110), the usefulness of the annual A-133 would be of limited value to NSF.”


OIG Recommendation 2.5 – DGA & DIAS provide technical assistance to USMFS to
ensure staff understands federal grant requirements and that experienced auditors are
engaged to perform A-133 audits.

Agency Response - If the award terms and conditions are amended to include Office of
Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations,
and part 215 of title 2 of the Code of Federal Regulations (formerly Office of
Management and Budget Circular A-110, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-
Profit Organizations), DGA and DIAS will consider arranging an on-site visit to USMFS
under the Award Monitoring and Business Assistance Program.


OIG Recommendation 3.1 – INT coordinate with NASA, EPA, and USDA officials to
develop consistent requirements on the USMFS endowment regarding: reserve funds,
investment requirements, and dissolution terms for the endowment principal and reserve.

Agency Response – NSF rejects this recommendation because it would inappropriately
have us take the lead in this matter.


OIG Recommendation 3.2 – That OISE evaluate the need for changes in the NSF grant
terms and conditions for the USMFS endowment fund based on the above.

Agency Response - To address the concerns expressed in this Audit Report, DGA, with
the advice of OISE, will seek to obtain appropriate amendments to the Funding
Agreement, including clarified directions on the disposition of NSF-provided funds --
endowment, reserve, and interest earning -- upon dissolution of USMFS.




                                           32
                                                                           Appendix B


OIG Recommendation 3.3 – That DGA require USMFS to use the US inflation rate
when computing the annual reserve amount and require USMFS to develop written
procedures and equitably allocate reserve to each contributing agency.

Agency Response – DGA will seek to obtain an amendment to the Funding Agreement
mandating that USMFS use the US inflation rate in calculating reserves of interest
earnings. That requirement, however, can apply only to NSF-provided funds.


OIG Recommendation 3.4 – That DGA require USMFS to limit investment of all US
endowment funds to US Government backed securities.

Agency Response - NSF rejects this recommendation because it has no authority over
funds provided to USMFS by other Federal agencies. The NSF funding arrangement did
contain this requirement and, based on the audit report, USMFS complied with this
requirement for the funds provided by NSF. NSF did not develop nor is NSF responsible
for the terms of the agreements developed by the other funding agencies. It is not
appropriate for NSF to dictate to other Federal agencies grants and agreements offices
how their award agreements should be structured.


OIG Recommendation 3.5 – That DGA require USMFS to establish clear disposition
terms for the endowment principal and the reserve funds. Reserve funds should be
clearly designated as endowment assets not USMFS assets.

Agency Response - As stated in response to an earlier recommendation (3.2), DGA, with
the advice of OISE, will seek to obtain amendments to the Funding Agreement clarifying
the disposition of NSF-provided funds -- endowment, reserve, and interest earning --
upon dissolution of USMFS.




                                          33
                                                                                                      appendix C
                                    United States-Mexico Foundation for Science
                                          MMico-Estados Unidos para la Ciencia




Board of Govemon




                                   Reference:
                                            -   Office of Inspector General (NSF) Draft audit report and letter
                                                dated September 3,2004




                                                                                         -
                                  Thank you for providing the United States Mexico Foundation for
                                  Science (FUMEC) with the opportunity to review and respond to the Office
                                  of Inspector General's rOIG") draft audit report "Audit of United States-
                                  Mexico Foundation for Science." We also thank you for granting FUMEC
                                  until November I,  2004 to provide its response to this draft audit report.
                                  This allowed FUMEC's Board of Governors to review and discuss
                                  thoroughly the drafl report at its October 1&2, 2004 Board meeting, as
                                  well as, did the appropriate consultations afterwards. Finally, thank you
                                  for granting FUMEC and its staff the opportunity to provide information to
                                  you during your review. .We hope that all of your questions were
                                  answered completely and to your satisfaction.

                                   FUMEC's Board of Governors, its management, and its staff have
                                   carefully reviewed the draft report of the Office of Inspector General's
                                   (OIG) audit of the Foundation and your September 3, 2004 transmittal
                                   letter. Your transmittal letter asked us to address the findings and
                                   recommendations in the draft report and to identify any factual




                   The National Academies. Keck building, Roam 565                Sm F d s c o 1626, Despacb 205, Col. del Valle
                      5005th Street, NW,Washington. D.C. 20001                   Delegaci6n BenitoJ h z ,C-l?03100, Mhico, D.F.

                                                           amail: general@fwnec.org.mx
                                                          lntemet:http:l/wvw.fmec.org.mx
                                                                                  Appendix C
        The United States-Mexico Foundation for Science
        Fundacih Mexico-Estados Unidos para la Ciencia




                inaccuracies in the draft repon Addressing the latter issue first, we
                believe the facts stated in the draft report are generally accurate.

                With respect to the findings and recommendations, it appears that the
                specific recommended corrective actions are directed at NSF and the
                other agencies. We stand ready to provide NSF with any information or
                assistance they may need in responding to the draft audit report. We also             .
                will work with them to develop and implement corrective actions, if any,
                resulting from OIG's recommendations,

                In addition to being prepared to work with the NSF on moving forward in
                developing and implementing corrective measures, FUMEC has already
                taken a number of steps to prepare for this process. First, FUMEC's
                Board of Governors, management, 'and staff have reviewed the draft
                report extensively and have a strong appreciation for the concerns and
                recommendations raised in the draft report. -

                Also, FUMEC has begun the process of devebping and implementing
                appropriate internal controls and procedures consistent with any new
                specific requirements which may be implemented if our grant agreements

                law firm 9
                with the a encies are revised. Specifically, FUMEC has retained a U.S.
                                               with extensive experience in U S . Federal
                grant and contract law. FUMEC has also retained an accounting firm with
                experience in Mexican accounting procedures, which is being advised by
                an international accounting company on the requirements of the relevant
                U S . laws and regulations including OM6 Circulars, A-110, A-122, and A-
                133.

                Based on the observations and comments of the draft audit report and
                any further corrective measures which might be negotiated with the NSF
                andlor the other agencies, FUMEC will act to improve its relevant internal
                procedures and controls.

                FUMEC, and especially the Board of Governors, greatly appreciate not
                only the granting of the extension of time for the response to the draft
                audit report, but the continuing close working relationship. We thank you




The National Academies, Kbck building. Room 565               San Francisco 1626, Despacho 205, Col. del Valle
   500 5th Straet, NW,Washington, D.C. 20001                 Delegaci6n Benito Juh-ez. C.P. 03 100. Mt?xico, D.E

                                        e-mail: general @fumec.org.rnx
                                       Intemet:h~tp:IIw~~w.fumec.org.mx
                                                                                                     ~ ~ p e n d iCx
                           The United States-Mexico Foundation for Science
                           Fundacih Mexico-Estados ~ n i d opara
                                                            s la Ciencia




Board ofGavenwrr

                                  for the opporturiity to respond and we reassure you that audit reports are
                                  taken very seriously and the review process continues to be precise,
                                  transparent, proper and takes into account the complexities associated
                                  with the successful operation of the Bi-National nature of this important
                                  enterprise.


                                   Sincerelv vours.




                   The N a t i d Academies, Keck building, Roam 565               San Francisco 1626. Despacbo 205. Cd.del Valle
                     500 5th Street, NW.Washington, D.C. 20001                   Delegacih Benito JuAra, GI? 03 100. MCxico. D.E

                                                           e-mai I: general@fumec.org.mx
                                                          Inteme~:http://www.fumec.org.mx
